0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 21-69
JOHN ALLISON HUCKABAY,

Petitioners,
V.

STATE OF IDAHO,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of Amici Curiae the Buckeye
Institute, Competitive Enterprise Institute, Clause 40
Foundation, Reason Foundation, Faith & Freedom
Coalition, and the Rutherford Institute in Support of
Petition for Writ of Certiorari contains 5,174 words,
excluding the parts of the Brief that are exempted by
Supreme Court Rule 33.l(d).
I declare under penalty of per1ury that the
foregoing is true and correct.
Executed on August 18, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

, www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public
[seal]

1

